                                                                                                    July 31, 2014


Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
 U.S. Army Corps of Engineers

Dear General Bostick:

I am writing to alert you to an urgent safety concern regarding the fuel farms located at the power
plants that provide electricity to Camp Shaheen. I am concerned that the bulk fuel storage tanks
supporting the power plants were not properly constructed to allow for removal of water and
particulate matter. If water and contaminants build up in these fuel tanks, the power plants they
support could mechanically fail.

A recent Combined Security Transition Command-Afghanistan (CSTC-A) site visit to the fuel farm at
Camp Shaheen revealed that the bulk storage tanks lack internal or external sloping that would allow
contaminants to collect at a single low point in the tanks. This deficiency appears to deviate from the
U.S. Army Corps of Engineers’ (USACE) project drawings and contract specifications for the
construction of the fuel tanks. The contract also requires construction of a “water draw off valve at
the tank low point” that would allow for easy and frequent draining of water and particulate matter
as it settles to the bottom. 1 However, the tanks at Camp Shaheen were constructed with flat bottoms
and internal “ribs,” which cannot be cleaned frequently and create internal pockets of water and
particulate matter. Given the tanks’ current construction, these contaminants are removable only via
the semiannual cleaning required by the operations and maintenance contract.

Additionally, a CSTC-A memorandum detailing the results of the site visit also states that not all tank
piping is adequately sized to allow for removal of foreign matter. The buildup of water in a fuel tank
promotes the growth of microbes that can form colonies that float on the surface of the fuel.
According to the CSTC-A memorandum, bacteria and fungus use this combination of water and fuel
to grow and multiply, creating a thick film in the tanks. The memorandum further states that if the
power generators that draw on the fuel tanks pull this foreign matter into the fuel line, the
generators will come to a stop. The memorandum points out that the filtration system in place will
not prevent this from happening because the film created by the fungus will coat the filtration system
and cause a pressure differential that is “extremely threatening to the generator.” 2 Generator failure
will jeopardize the flow of electricity to Camp Shaheen disrupting operations there.

While I understand that the generators themselves are equipped with oil/water separators, these
components are likely to wear out faster and require more frequent replacement as a result of the
tank design. This situation is especially concerning, given the fact that the operation and
maintenance contract for the fuel tanks calls for removal of water and debris only at six month
intervals. At this rate, the site visit memorandum states that “the likelihood of generator failure due




1   W5J9JE-13-C-0002 Afghan National Army 209th Corps Shaheen Fuel Farm Expansion (October 2012) § 01015-5.2.1(c).
2   Memorandum of Lt. Richard Dowling (May 24, 2014).
to contamination at some point in the future approaches 100%.” 3 Contamination of 230,000 liters
of fuel has already caused failures at the power plant at Camp Thunder in Gardez, and I am
concerned that Champ Shaheen may suffer similar problems if USACE does not change its
maintenance practices.

In order to ensure the safety of the personnel at Camp Shaheen, I request written responses to the
following questions:

          1. Why were the diesel fuel tanks supporting power plants one and two at Camp Shaheen
             constructed in a manner other than that described in the contract specifications?
             Specifically, why do the tanks have flat bottoms and internal ribs, instead of internal or
             external slopes leading to a single low point?

          2. Why is some of the piping in the tanks not sized properly to allow for the removal of foreign
             matter?

          3. Will the scheduled transition of maintenance responsibilities to the Afghan National Army
             alter the frequency with which the tanks are cleaned?

          4. What other measures, if any, is USACE taking to ensure the proper maintenance and
             operation of the fuel tanks at Camp Shaheen? Please include a description of any actions
             taken to remove excess water and particulate matter beyond those that take place during
             the semi-annual cleaning process.

          5. What contingency plans are in place if either power plant at Camp Shaheen fails?

Please respond in writing to this request by August 14, 2014. Thank you in advance for your
cooperation. These requests are made pursuant to the Inspector General Act of 1978, as amended,
and section 1229 of the National Defense Authorization Act for Fiscal Year 2008, as amended.

Should you have any questions or need additional information, please have your staff contact Jack
Mitchell, Director of Special Projects at                             or                .

                                                                       Sincerely,




                                                                       John F. Sopko
                                                                       Special Inspector General
                                                                         For Afghanistan Reconstruction




3   Id.

SIGAR-14-86-SP Inquiry Letter: Construction of Fuel Storage Tanks at Camp Shaheen                         Page 2
